<html>
<title> - NOMINATION OF ROBERT M. GROVES</title>
<body><pre>[Senate Hearing 111-803]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-803
 
                     NOMINATION OF ROBERT M. GROVES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

   NOMINATION OF ROBERT M. GROVES TO BE DIRECTOR OF THE CENSUS, U.S. 
                         DEPARTMENT OF COMMERCE

                              MAY 15, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
51-029                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
     Velvet D. Johnson, Counsel, Subcommittee on Federal Financial 
Management, Government Information, Federal Services, and International 
                                Security
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Levin................................................     1
    Senator Akaka................................................     9
    Senator Collins..............................................    15
Prepared statement:
    Senator Lieberman............................................    29

                                WITNESS
                          Friday, May 15, 2009

Robert M. Groves to be Director of the Census, U.S. Department of 
  Commerce:
    Testimony....................................................     7
    Prepared statement...........................................    31
    Biographical and financial information.......................    33
    Responses to pre-hearing questions...........................    59
    Letter from the Office of Government Ethics..................   100
    Responses to post-hearing questions for the Record...........   101
    Letters of support...........................................   103


                     NOMINATION OF ROBERT M. GROVES

                              ----------                              


                          FRIDAY, MAY 15, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper, Levin, Akaka, and Collins.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. The Committee will come to order. Welcome. 
I just want to take a moment to talk about the agenda here 
today. We will start off by calling on our colleague Senator 
Carl Levin to introduce our nominee, and after he has done 
that, he is welcome to stay for as long as he would like. I 
know he has a lot on his plate, but if he can stay, he is 
welcome to stay for as long as his schedule permits.
    After he has spoken, I will give an opening statement, a 
fairly lengthy one. We will swear in our witness. We have to 
ask you to stand and take an oath, and then after you have 
given your statement, we will break for lunch. We will take 2 
hours for lunch. [Laughter.]
    We will not break for lunch. We will go right into 
questions and answers, and we will probably be out of here, my 
guess, within an hour and a half. Several of our colleagues are 
going to be joining us, and as they come, they will have the 
opportunity to make statements and to join in the questioning.
    We are delighted that you are here, and Senator Levin, we 
are especially glad that you are here to introduce Dr. Groves 
to us today.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Chairman Carper, thanks for your 
introduction, your comments, your constant goodwill, good 
nature, and hospitality. Thank you.
    I am pleased to introduce Robert Groves to the Committee 
this morning. Mr. Groves is a long-time Michigan resident. He 
has been part of the University of Michigan community since he 
began his master's study in Ann Arbor in 1970. He graduated 
summa cum laude from Dartmouth College with a degree in 
sociology, and he earned master's degrees in statistics and 
sociology and a doctorate in sociology from the University of 
Michigan. He is currently a professor in the Department of 
Sociology and, most significantly, I believe, is the Director 
of the University of Michigan's Survey Research Center.
    He is, to put it mildly, a highly respected expert in 
survey methodology and statistics, and I want to reassure the 
Chairman, he is also a strong fan of the Detroit Tigers. 
[Laughter.]
    And I say that because our Chairman is a strong fan of the 
Detroit Tigers.
    Senator Carper. We will go right to the confirmation at 
this time. [Laughter.]
    Senator Levin. Mr. Groves' mentor throughout graduate 
school was Professor Leslie Kish, who is one of the greatest 
statisticians of our time. He was also the father of Carla 
Kish, who was a staffer in my office about 20 years ago. I 
believe that she is here today as one of his guests.
    Professor Kish was his mentor through graduate school and 
throughout their careers. Professor Kish and Mr. Groves 
collaborated extensively, researching ways to improve surveys. 
Professor Kish was behind the idea of an annual rolling census 
of the population, which led to the creation of the American 
Community Survey. He was also instrumental in the wide 
acceptance of probability sampling.
    The Chairman could ask our nominee what that is because I 
know it sounds good, but I am not sure exactly what that does 
mean. [Laughter.]
    As head of the Institute for Social Research and the Survey 
Research Center, he heads one of the most important research 
institutes in our country. It is the largest academic-based 
research institute of its kind in the world. It has educated 
many of our Nation's scientific leaders in the field of survey 
statistics. And he was elected by the research faculty to lead 
that center in 2001. That is what his peers think of him.
    He also has experience at the U.S. Census Bureau itself. In 
1982, he was a visiting statistician at the Census Bureau. He 
returned to the Census Bureau 8 years later and served as the 
Associate Director for Statistical Design Standards and 
Methodology. He has written several books and dozens of 
articles and book chapters on survey methods. Much of his work 
has focused on increasing response rates to polls and surveys. 
He has used his research and expertise to help design surveys 
for numerous agencies, organizations, and universities, 
including the National Institutes of Health, the American Lung 
Association, Cornell University, and the National Center for 
Educational Statistics.
    He has been endorsed for the position of Director of the 
Census Bureau by many scientific and professional associations, 
including the American Statistical Association, the American 
Sociological Association, and the Council of American Survey 
Research Organizations.
    And perhaps most significantly, I believe perhaps the most 
significant endorsement of all, far more important surely than 
mine, he has been endorsed by six former Directors of the U.S. 
Census Bureau who were appointed by both Republican and 
Democratic Presidents. These include Presidents Carter and 
Reagan, President George Herbert Walker Bush, President 
Clinton, and President George W. Bush. So the Census Bureau 
Directors for all those Presidents wrote a letter to the 
Committee, and this letter has been received, I know, by the 
Committee.\1\ I am tempted to read from it, but I think I will 
not in the interest of time, other than to say it is a glowing 
endorsement of our nominee. And I know it will be made part of 
the record. And, again, to me this is the most significant 
endorsement that any nominee for the Census Bureau can 
receive--the support of Directors under Presidents of both 
parties for this position.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Levin appears in the Appendix 
on page 112.
---------------------------------------------------------------------------
    So Dr. Groves is before you today because of his expertise 
in survey methodology and statistics. He is driven by a desire 
to be of public service. His hallmarks have been and will be 
his belief in scientific methods and his independence. And that 
pursuit of science and his characteristic of personal integrity 
and independence are the characteristics required by the 
position to which he has been nominated.
    So it is a pleasure of mine to be with you today, and I 
thank you again, Mr. Chairman, for holding this hearing and 
hope that this can proceed expeditiously after consideration by 
this Committee and the Senate because I know there is a great 
need to have this position filled so we can get on with the 
next census, which is looming before us.
    I thank our Chairman. I will not be able to stay, and I 
know our nominee, after your comments, when it is his turn, 
will introduce his family and perhaps one or two of his 
supporting crew.
    I have taken a statistical sample of the people who are 
with him this morning. They are 100 percent supportive. 
[Laughter.]
    Thank you very much, Mr. Chairman.
    Senator Carper. Senator Levin, before you leave, I just 
want to say to Dr. Groves that we received the letter to the 
Committee signed by all the former Directors of the Census for 
30 years or so. At first, our inclination was to be quite 
favorably impressed by it. On closer inspection, I became 
suspicious that the signatures all looked very much like Carl 
Levin's signature. [Laughter.]
    That is probably just a coincidence. We will figure that 
out when we get into the hearing.
    Senator Levin, thank you so much.
    Welcome one and all. Dr. Groves, your nomination, as you 
know, comes at a critical time for the Census Bureau. While the 
agency is not among the largest in the Federal Government, it 
nonetheless plays an integral role in the day-to-day operations 
of our Federal Government.
    Most people know that the Census Bureau is the government 
agency that counts the population every 10 years. Less known is 
that it regularly provides government, businesses, and academia 
with an updated picture, really a photograph, of who we are, a 
portrait of who we are as individuals, as communities, and as a 
Nation.
    As one of the Federal Government's few constitutionally 
mandated functions, the decennial census determines how many 
seats each State gets in the U.S. House of Representatives and 
how hundreds of billions of dollars in Federal assistance will 
be apportioned out to State and local governments.
    Earlier this week, we held a field hearing in Philadelphia 
at the National Constitution Center. A beautiful place. But one 
of the things that we learned is--in my State, we only have one 
congressional district, so it is not hard to figure out how to 
structure that district--in Pennsylvania, not only does the 
census help them determine how many congressional seats they 
will have, but where those seats will be, how to carve out the 
State legislative seats, and how really to carve out 
councilmanic seats in the City of Philadelphia. So in terms of 
the political structure of our States, our communities, there 
is a lot of input here by the census, great reliance on the 
census.
    Finding and enumerating nearly 300 million individuals and 
the correct locations is, of course, an extremely daunting 
task. And every one of those people who signed that letter 
endorsing your candidacy knows full well of what I speak. But 
since I took over as chairman of the subcommittee with 
oversight over the Census Bureau, I have been struck by the 
complexity of the undertaking and by the amount of staff and 
resources needed to get this job done, to accurately count the 
people in our country, and to do so in a cost-effective manner.
    The census requires years of planning, as you know, years 
of preparation, followed by lightning execution in real time 
without any flaws. And looking back at the 2000 census, it 
involved the hiring of nearly a half million temporary workers, 
opening over 500 local Census Bureau offices nationwide, and 
following up with 42 million households who had not responded.
    Given the sheer magnitude of such an undertaking, a 
shortcoming in one area can quickly have a domino effect on 
other operations. For example, a low mail response rate would 
increase the nonresponse follow-up workload, which in turn 
would drive up the Census Bureau's staffing needs and drive up 
costs.
    With each census, the challenge continues to grow in terms 
of cost and complexity as our population becomes larger, more 
diverse, and increasingly difficult to count. The cost of the 
2010 census has escalated to an estimated $14 billion, making 
it the most expensive census that history has seen, at least in 
this country so far. Put another way, it will cost our Nation 
an estimated $100 to count each household in 2010, compared to 
$56 in 2000 and $13 in 1970.
    The growing cost of the census at a time when the Federal 
Government is facing an unprecedented budget deficit highlights 
the importance of making sure that each additional dollar spent 
on our census actually improves the quality of the data.
    The 2010 census is approaching rapidly with Census Day now 
less than a year away. The Census Bureau has faced many 
operational and management challenges that have jeopardized its 
success. These challenges include under-funding by the last 
Administration for outreach to minority communities and the 
colossal mismanagement and failure of the contract for handheld 
computers that led to an entire re-plan of the census very late 
in the game.
    The Census Bureau has taken steps to get the census back on 
track, but it is imperative that a strong management team is in 
place so that it can remain on the right track. And I might 
say, your predecessor, the person who has just stepped down, 
Dr. Murdock, served for, I think, 1 year and 5 days, and I 
think he did yeoman's labor in that 1 year in trying to get us 
back on track. I would just say here that I express my 
appreciation for his leadership and for his service for that 
370 days.
    I feel the need, though, to reiterate that although Census 
Day may officially last 1 day, its impact is felt over the 
course of a full decade. An inaccurate census count can be a 
major setback for millions of Americans already struggling for 
economic survival.
    With that said, I do not have any doubt that Dr. Groves is 
up to the challenge and that he commands the respect both 
inside and outside the Census Bureau to fully restore 
confidence in the agency's competence and integrity.
    Dr. Groves, you have a strong background in issues related 
to the census and statistics. You will bring a wealth of 
experience, as we were just reminded by Senator Levin, and 
service as Director of the Census. We appreciate your 
commitment to public service and your willingness to help the 
Census Bureau navigate through such challenging times.
    [The prepared statement of Senator Carper follows:]

                  PREPARED STATEMENT OF SENATOR CARPER

    Dr. Groves, your nomination, as you know, comes at a critical time 
for the Census Bureau. While the agency is not among the largest in the 
Federal Government, it nonetheless plays an integral role.
    Most people know that the Bureau is the government agency that 
counts the population every 10 years. Less known is that it regularly 
provides the government, business, and academia with an updated picture 
of who we are as individuals, communities, and a nation.
    As one of the Federal Government's few constitutionally mandated 
functions, the decennial census determines how many seats each state 
gets in the House of Representatives and how hundreds of billions of 
dollars in Federal assistance are allocated to State and local 
governments.
    Finding and enumerating nearly 300 million individuals is, of 
course, an extremely daunting task. Since I took over as chairman of 
the subcommittee with oversight over the Census Bureau, I have been 
struck by the complexity of the undertaking and by the amount of staff 
and resources needed to get the job done, and done well.
    The census requires years of planning and preparation, followed by 
lightning execution in real time. In fact the 2000 census involved 
hiring nearly a half million temporary workers, opening over 500 local 
census offices nationwide, and following up with 42 million 
nonrespondent households.
    Given the sheer magnitude of such an undertaking, a shortcoming in 
one area can quickly have a domino effect on other operations. For 
example, a low mail response rate would increase the nonresponse 
follow-up workload, which in turn would increase the Bureau's staffing 
needs and drive up costs.
    With each census, the challenge continues to grow in terms of cost 
and complexity as our population becomes larger, more diverse, and 
increasingly difficult to enumerate. The cost of the 2010 census has 
escalated to an estimated $14 billion, making it the most expensive 
census history by far. Put another way, it will cost the nation an 
estimated $100 to count each household in 2010, compared to $56 in 2000 
and $13 in 1970.
    The growing cost of the census at a time when the Federal 
Government is facing an unprecedented budget deficit highlights the 
importance of making sure that every dollar spent on the census 
improves the quality of the data collected.
    The 2010 census is approaching rapidly with Census Day now less 
than a year away. The Bureau has faced many operational and management 
challenges that have jeopardized its success. These challenges include 
under-funding by the last administration for outreach to minority 
communities, and the colossal mismanagement and failure of the contract 
for handheld computers that led to an entire re-plan of the census very 
late in the game.
    The Census Bureau has taken steps to get the census back on track, 
but it is imperative that a strong management team is in place so that 
it can remain on the right track. I feel the need to reiterate that 
although Census Day may officially last one day, its impact is felt 
over a decade. An inaccurate census count can be a major setback for 
millions of communities already struggling for economic survival.
    With that said, I do not have any doubt that Dr. Groves is up to 
the challenge and that he commands the respect necessary both inside 
and outside the government to restore confidence in the agency's 
competence and integrity.
    Dr. Groves, you have a strong background in statistics and issues 
related to the census, and you will bring a wealth of experience and 
service as Director of the Census. I appreciate your commitment to 
public service and your willingness to help the Bureau navigate through 
such challenging times.

    Senator Carper. Now, if there were other Members here, I 
would recognize them for their opening statements at this 
point. But no Members have arrived yet.
    I understand, Dr. Groves, that you filed responses to a 
biographical and financial questionnaire. I actually read 
through most of it, and you have done a lot of research and 
writing. You have also answered pre-hearing questions submitted 
by the Committee. I read most of those, too. I do not know how 
long it took to answer. I know it took a long time to read. But 
I thought we asked a lot of good questions, and I thought your 
answers were actually quite good.
    In addition, your financial statements have been reviewed 
by the Office of Government Ethics, and without objection, the 
information will be made a part of the hearing record. The 
financial data, however, will remain on file for public 
inspection in our Committee's offices.
    Committee rules require that all witnesses at nomination 
hearings give their testimony under oath, and from time to time 
when we have witnesses before us that are new to the game, they 
are not required to be testifying under oath. But I will just 
kid them and say, ``Normally we do not swear in our witnesses, 
but you look pretty questionable, my friend, so we will ask you 
to take this oath.'' [Laughter.]
    In your case, you do not look that questionable, but the 
rules of the Committee require us to administer this oath, and 
I am going to ask you to stand and raise your right hand, 
please. Do you swear that the testimony you are about to give 
to the Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Groves. I do.
    Senator Carper. Thank you very much. You can be seated. 
With that said, Dr. Groves, please proceed with any opening 
statement that you have. I had a chance to meet some members of 
your family and others who have come with you, special guests, 
and feel free as you begin or end your statement to introduce 
them, too. As the father of two sons, one of whom came home 
from college last night, I am delighted one of your boys was 
able to join you as well.
    Mr. Groves. Thank you, Senator. Indeed, I would like to 
begin by introducing some of my guests. Behind me is my wife, 
Cynthia, who is the president of a Washington-based consulting 
firm specializing in retail real estate and financial markets. 
I thank her deeply for her love and support throughout our 39-
year marriage.
    Next to her is my son, Andrew, who is completing his 
freshman year at Northwestern in the famous Integrated Science 
Program at the university. We are very proud of him.
    We are missing our son, Christopher, who is a senior at 
Purdue University and is on his way to becoming one of the 
world's best flight instructors and commercial pilot.
    Next to Andrew--well, let me go behind first to other parts 
of my family. My sister, Carrie, and her husband, Gary----
    Senator Carper. As your names are called, would you just 
raise your hand, please? Thank you.
    Mr. Groves. They constitute the Vermont delegation.
    Next to Carrie is my younger sister, Joan, and her son, 
Russell, the Pennsylvania delegation.
    These are my family members, but I actually have another 
family, my intellectual and research family, and Cathy 
Thibault, who is next to Andrew, is the Assistant Director at 
the Michigan Survey Research Center. And Carla Kish, who is 
there, is the daughter of Leslie Kish, one of my great mentors, 
and I know he is here today. I feel his presence.
    And out in the audience are scattered throughout various 
faculty members and Ph.D. students from the Joint Program in 
Survey Methodology located here at the University of Maryland.
    So this collectivity, my family and my research network, is 
really the joy of my existence, and I thank them all for being 
here.
    I would also like to thank you, Mr. Chairman. We had a 
wonderful meeting in your office. I am very thankful for how 
gracious you were with your time, and you and your staff, the 
staff of the entire Committee, made me feel very welcomed and 
respected. I appreciate that. I especially enjoyed meeting with 
this group of staffers behind you last Friday in an extended 
meeting, and it was very useful for me.
    Senator Carper. How did they do?
    Mr. Groves. They did very well. We had a good time, I 
thought.
    Senator Carper. They said you did OK, too.
    Mr. Groves. That is great. I feel very good about working 
with this Committee, and I hope we have a wonderful 
relationship, should I be confirmed.
    Let me begin my more formal remarks, and what I would like 
to do is give you a short subset of the material I presented to 
the Committee, and I hope the rest could be entered into the 
record.
    Senator Carper. It will be entered, without objection.
    Mr. Groves. Thank you, Senator.
    Senator Carper. Please proceed.

TESTIMONY OF ROBERT M. GROVES \1\ TO BE DIRECTOR OF THE CENSUS, 
                  U.S. DEPARTMENT OF COMMERCE

    Mr. Groves. I want to thank President Obama for nominating 
me to this position. It is a singular honor to be asked to 
serve the public in this role.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Groves appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    Mr. Chairman, I want to talk very briefly--I promise--about 
four topics: One is the necessary nonpartisan nature of the 
Federal statistical system; two is the inherent scientific 
nature of Government statistics; three is the management of 
large-scale scientific organizations; and four is the 
intersection of legal and statistical perspectives on the 
decennial census.
    First, why does the country need a Federal statistical 
system independent of partisan politics?
    I firmly believe that a key attribute of a democracy is an 
informed citizenry. Throughout the world, government 
statistical agencies are one source of such information, and 
there are two key attributes of this information that are of 
key importance. One is credibility and the other is accuracy. 
If the information is believed to be slanted by partisan 
influence, the credibility of the statistics is destroyed. Once 
destroyed, the public trust cannot be easily or quickly 
restored. I am pursuing this post because I believe strongly 
that this country needs an objective, nonpartisan, professional 
Census Bureau. And if confirmed, I promise to give my full 
energy toward that end.
    Second, the inherent scientific nature of government 
statistics. The credibility of government statistics also 
depends on their accuracy. My research career has been devoted 
to the improvement of the quality and cost properties of sample 
surveys and censuses, and I have learned something in that 
career, and that is that good scientific measurement of a 
dynamic population requires continuous research and 
development.
    I want the Census Bureau to be a leader in such 
developments. Science and a scientific organization must be 
creative, transparent, self-critical, open to new ideas, and 
wise in grasping ultimate success from intermediate failures. 
The director of a Federal statistical agency must be free to 
speak on scientific matters unfettered by political influences. 
If confirmed, I intend to do so.
    Third, the management of large-scale scientific 
organizations. I know full well that right now, as I speak, the 
talented staff of the Census Bureau are working night and day 
to assure the best 2010 census possible. They need a strong 
leader that supports them and appreciates their work. I will 
work toward that end with the executive team already assembled 
on the 2010 census, but I will be quick to seek advice and 
counsel from the brightest minds in the country. I promise to 
be transparent in these activities with respect to the many 
stakeholders of the census.
    Beyond the decennial, the Census Bureau has over 12,000 
staff members engaged in providing key economic and social 
indicators, most important to the country at this time of 
economic difficulty. All of these efforts face ongoing 
scientific issues of measurement and estimation, and I look 
forward to those challenges.
    Fourth, and finally, the intersection of the legal and the 
statistical on the decennial census. The U.S. Constitution 
specifies a decennial census ``in the manner that Congress 
shall by law direct.'' Congress delegates to the Secretary of 
Commerce through Title 13 the authority to conduct the census; 
the Census Bureau director performs duties specified by law or 
orders of the Secretary. Further, the Supreme Court has ruled 
on matters affecting the census, most notably the banning of 
the use of statistical adjustment for reapportionment use. 
Thus, all three branches of government play roles in the 
decennial census, but Congress is granted the explicit primary 
responsibility in the Constitution.
    Mr. Chairman, I understand this. I fully agree with 
Secretary Locke's testimony that statistical adjustment of the 
census is eliminated as an option for reapportionment and, 
further, that statistical adjustment will not be used for 
redistricting. But there is also a science side of the job of 
the Census Bureau. Congress, through this Committee and others, 
has consistently demanded innovation and increased accuracy and 
efficiency of the census. My job, as I see it, is to constantly 
search for improvements in the ways censuses and surveys are 
conducted. When the Census Bureau discovers such tools to 
improve, say, the decennial census, then I believe it is the 
obligation of the Census Bureau to describe these tools to the 
Secretary, to this Committee, to Congress more widely, and to 
the scientific community. Given the constitutional 
responsibility of Congress, transparency and public comment are 
required for any acceptable change in the decennial census.
    Mr. Chairman, these are my remarks. I especially look 
forward to working with this Committee throughout the decade to 
assure the strongest Census Bureau the country can produce.
    Senator Carper. Dr. Groves, thank you very much for your 
testimony.
    We have been joined by my friend, Senator Daniel Akaka, 
beloved by his colleagues in the U.S. Senate. It is great to 
serve with him, and I am delighted that you could join us this 
morning. The Senate is in session today, but we have no votes 
today. As a result, many of our colleagues have returned to 
their home States. It is easy for me to go home. It only takes 
me 90 minutes on the train to get home to Delaware at night. I 
go back and forth almost every night. But it is a little longer 
train ride to Hawaii for Senator Akaka. [Laughter.]
    I am delighted he is here. Senator Akaka, if you have 
comments you would like to make, please feel free. Then we will 
start asking some questions.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I thank 
you for your leadership in many areas, and this one in 
particular. I am very impressed with the nominee that we are 
considering at this time. I want to congratulate you, Mr. 
Groves, on your nomination, and I want to also welcome your 
family as well--your wife, Cynthia, and your son, who is here, 
too. I understand Christopher is not here. He is working at 
school. And also your friends--I should say supporters--who are 
here to help you. And so welcome to all of you to this 
Committee.
    I want to tell you that I was very impressed with you at 
our meeting. It was a good meeting because we talked about many 
different aspects of the Census Bureau's work. And I want you 
to know that I enjoyed that discussion. With the census right 
around the corner, the Census Bureau must have strong 
leadership. In your statement, you were so humble to say that 
you will continue to strive to do the best you can, and that is 
really great. I am glad you raised what we call ``the Big E,'' 
standing for efficiency, and striving to maximize all your 
resources, including personnel and stakeholders and others, to 
bring that about.
    The census provides critical information, as you stated, 
that guides Congress' public policy decisions on many topics. 
It is clear that you have a solid understanding of the 
challenges facing the Census Bureau, and that is why I am 
impressed with you.
    Given these challenges, I hope you will focus on 
strengthening management at the Census Bureau. In particular, a 
well-managed organization must invest in its workforce in order 
to meet its mission. And mentioning workforce, I hope you will 
bring that workforce up to its ultimate strength and get the 
proper people in there and fill all the vacancies. Also you 
have highlighted strengthening research, and that is another 
area that needs personnel as well. I hope you will make it a 
priority to provide the Census Bureau's employees the necessary 
support as you have indicated.
    So, without question, you are well qualified to provide the 
leadership the Census Bureau needs, and I look forward to 
working with you and with the Committee and Chairman Carper as 
well.
    Thank you very much for giving me the time.
    Senator Carper. Senator Akaka, thank you so much and thanks 
for your kind words.
    I would like to start off talking with you, Mr. Groves, 
about undercount and overcount. You have two sons. My wife and 
I have two sons. Your boys are 19 and 21. Our boys are 19 and 
20. Our youngest boy just came home last night from school. He 
goes to school in Virginia, and our older son is a junior, goes 
to school up in the Boston area. I do not want to give your 
sons any ideas, but my big boy and his best friends from 
college are going to have a summer job this summer in 
Cupertino, California, working for Apple. And about a week from 
now, actually less than a week from now, my two sons and the 
best friend of my older son are going to literally drive my 
like-new 2001 Chrysler Town and Country minivan from Boston to 
California, to the Bay area, for the road trip probably of a 
lifetime. I see your son smiling. Andrew, I do not want to give 
you any ideas, but I think they are going to have quite an 
adventure.
    I mention them because when you think about the overcount 
that occurs, oftentimes the people we count twice are those who 
are in college, who go to school away, do not live at home, and 
they may live in another part of the State or another State 
altogether. Or they may, as is the case of our older son this 
summer, be living on the other side of the country and working 
there. And I think of my own life as an undergraduate at Ohio 
State. I was a Navy ROTC midshipman, and each summer we would 
head off and learn to fly airplanes and be on ships and 
submarines and aircraft carriers. So it was not a stay-at-home 
situation, but the mobility we have today with our young people 
is really remarkable. They travel around the State, around the 
country, literally around the world. And it is hard enough for 
us to keep track of them. I am sure it is a challenge for the 
Census Bureau to do that as well.
    But I am told we have an overcount that occurs a lot of 
times with young people in college who are very mobile, going 
to school, working and traveling throughout the world. And to 
try to be able to count them accurately is a challenge.
    I also understand that--and Delaware is a State where we 
have beautiful beaches, rivaling those of Hawaii, I am told, 
but we do not have as many of them. But we have a lot of people 
who come to Delaware for tourism, and I am sure they come to 
Hawaii for tourism. We have a lot of folks who have summer 
homes, year-round homes, or second homes in places like Dewey 
Beach, Rehoboth Beach, Bethany Beach, and other places.
    There is a propensity to count people who have second homes 
or vacation homes maybe twice, at their primary residence and 
at their second residence as well. That is, I am told, how we 
end up with overcounts.
    We also end up with undercounts, and I read your responses 
to some of the questions that were raised about undercounts and 
why that occurs, why it is so difficult to get some segments of 
our society to respond to the request to be counted and provide 
even basic information about their families.
    I am going to ask you to take a couple of minutes, though, 
and just go back and revisit and share with us again your 
thoughts, and why is it so difficult to get some segments of 
our population to respond and to be counted and to provide 
information that is sought by the census? Why is that so 
difficult?
    Mr. Groves. Thank you, Senator. It is one of the most 
fundamental and important questions that faces the Census 
Bureau and, indeed, statistical agencies around the world.
    We know some things, I think, from research that has gone 
on over the past decades. There appear to be influences on 
participation in censuses that are rather stable. The most 
difficult to count are routinely those folks whose connection 
to a single household is ambiguous. Even though in some sense 
censuses around the world ask a very simple question, ``Who 
lives here?'' The answer to the question is complicated for 
those who live in multiple homes at different parts of the 
week. This includes young men with multiple connections to 
households. It includes children of divorced parents who have 
child-sharing arrangements, where the children live in one 
household for a few days of the week and another household for 
other days.
    It includes, unfortunately, groups that are isolated from 
the larger society, that do not feel part of the society. It 
includes people whose primary language is not English; 
especially isolated language groups, when asked to participate, 
need to be asked in ways that they understand. And it 
includes--and this is an area of great concern for this country 
right now, I think--households that are doubled up, households 
where there are multiple families in the household, in a sense 
in a temporary way, but ambiguously temporary.
    So these are causes that appear to be prevalent throughout 
the world. It is an issue that every census-taking operation 
faces, and the solutions are not simple. But they are the 
challenge that we face.
    Senator Carper. All right. Thank you. We have been joined 
by Senator Collins, who is the Ranking Republican on our full 
Committee. We are delighted that she is here.
    Let me just ask a follow-up question, if I can, and then we 
will turn it over to Senator Akaka for questions and then to 
Senator Collins for a statement, if she would like to make one, 
and questions as well.
    Sort of following up on your response, explain to us some 
of the approaches that we use, some of the techniques that we 
use in the census to be able to cut through all those 
difficulties, all those challenges, and actually get, as best 
we can, an accurate count. What have we learned over the years 
and how will we see those lessons demonstrated in the census 
that will begin shortly?
    Mr. Groves. Well, there are solutions to some of these. The 
solutions are the result of the research efforts partly at the 
Census Bureau and partly at other organizations. So we know 
very simple things work. Calling back on a house that did not 
return the form is an enormously successful act. It is 
expensive, but it is successful.
    I think we know from other efforts that altering the modes 
of data collection can be successful--that some people like to 
respond with a face-to-face enumerator right in their home, 
they feel safe about that, they understand that. Other people 
would prefer to respond with the privacy of a self-administered 
questionnaire or a Web-based instrument. So tailoring methods 
to sub-populations is key.
    The other thing that is key--and this has to do with the 
outreach that is going on now--is that groups cannot believe 
that their participation in the census can harm them. If they 
think that participating in the census can harm them in some 
way, then that is a big deterrent to their participation. So 
how do we counteract that? It is through the outreach and 
working with groups that are trusted spokesmen, leaders in the 
sub-groups of the population, that we can break that 
misconception about what a census is.
    Senator Carper. I do not know if in the past, Presidents 
have ever been involved in calling on the American people to 
stand up and be counted and to be responsive to the census. 
When you talk about the segments of a population that are 
reluctant to respond, I think in some instances they may be 
moved to be more responsive, to participate more fully, with an 
appropriate appeal from our President or even from Mrs. Obama. 
Do we have any experience with that sort of thing, to your 
knowledge?
    Mr. Groves. Well, I think that history has shown us that if 
censuses can mobilize leaders of all sorts, leaders at the 
local, the State, the regional level, the national level in all 
sectors of the society, it is key. Each of those leaders has 
influence over different groups. I think Presidents in the past 
have been effective spokesmen for encouraging participation 
among groups that they can touch through their remarks.
    Senator Carper. Thank you. Normally, Dr. Groves, we ask 
three questions that are always the same three questions that 
are asked of our witnesses, those who are standing for 
confirmation, and I am going to ask those three questions and 
then call on Senator Akaka for his questions.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated?
    Mr. Groves. No.
    Senator Carper. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Groves. No.
    Senator Carper. And do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Groves. Yes, I do, Mr. Chairman.
    Senator Carper. All right. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Senator Carper. I thought he did a good job answering those 
three questions. What do you think? We will go to the next 
level.
    Senator Akaka. Well, thank you, Mr. Groves. I did not 
mention your son who is here; his name is Andrew. I just want 
to welcome Andrew, too, with the family.
    As I mentioned to you in our chat, I am concerned about 
COLA. In Hawaii and Alaska and also in the territories, Federal 
employees receive a COLA, or a cost-of-living allowance, 
instead of locality pay. In most of Hawaii, the COLA rate is 25 
percent of an employee's basic pay. What I want to mention is 
that it has come to my attention that the regional office has 
decided to deny COLA for temporary employees hired in Hawaii 
for the 2010 census. During these difficult times, of course, 
denying COLA can have a significant impact on workers' economic 
security.
    Will you commit to review the decision and to address any 
inequity in the treatment of temporary employees in Hawaii and 
other COLA areas versus other parts of the United States?
    Mr. Groves. Well, thank you, Senator. At our meeting in 
your offices a few days ago, this was the first I learned about 
this. I understand your concern about this issue. I do not know 
much about it, frankly. I do promise you that I will find out 
about this, if confirmed, as quickly as I can and address the 
issue.
    Senator Akaka. Well, thank you for that.
    Mr. Groves, the Federal Government is facing major human 
capital challenges. Approximately one-third of the Federal 
workforce will be eligible to retire within the next 5 years, 
and you estimate that 45 percent of current Census Bureau 
employees will be eligible to retire next year. You have 
particularly emphasized the Census Bureau's need to recruit 
employees skilled in statistics and research methods, which is 
really your area.
    What steps will you take to ensure that the Census Bureau 
is able to recruit and train workers with the technical 
background needed to replace these retirees?
    Mr. Groves. Well, Senator, I know we share this concern, 
and we had a talk about how important this is. I am terribly 
worried about this problem. It is not a problem only of the 
Census Bureau, but of the entire Federal statistical system. So 
actually solving it for the Census Bureau does not solve it for 
very long because other areas need help.
    It is a large problem because on my visits to college 
campuses--and I am sure you in your role have done similar 
things--if you visit the departments that are teaching 
quantitative sciences, the ratio of American citizens to 
foreign international students is such that you have little 
hope that this problem can be solved with the current pipeline 
of students who are currently U.S. citizens coming into the 
system.
    Second, the number of programs in the country training 
people that have the requisite skills for the Census Bureau is 
way below the need. So it is not a simple problem. It is a 
problem that I think needs help with regard to hiring 
restrictions. I note with great interest that the Public Health 
Service has a class of employees where citizenship requirements 
are not in place. They are advanced scientific workers and 
doing wonderful work for the country.
    I also think that working with this Committee, its role is 
perfectly situated to be useful in this. I think there is a 
partnership that is required with universities and the Federal 
statistical system that does not exist.
    So it is a many-faceted problem. It is not a simple 
problem, or it would have been solved before. But I think it is 
a critical problem to work on so that 10 years from now, 
whoever is sitting here can talk about a much stronger Census 
Bureau with you.
    Senator Akaka. Mr. Groves, I am glad you mentioned in 
particular the universities and colleges and even community 
colleges, and you mentioned developing pipelines into 
university programs in order to reach the talent pool with 
these skills. Developing pipelines into pools of talented 
candidates is very important. Would you elaborate on the steps 
that you would take to foster these relationships with the 
colleges and universities?
    Mr. Groves. Well, I think it does, Senator, require 
outreach from the Federal statistical system, and I think it is 
an outreach at multiple levels. It has been my experience that 
programs that serve this kind of need are understood by 
presidents of universities; they are understood by some deans. 
They are often opposed by individual faculty members because 
they are interdisciplinary programs, and that is what the world 
needs, and we need to foster the creation of those programs. So 
I think it needs a pretty high level of communication.
    Senator Akaka. Well, finally, because my time is almost up, 
I have been looking at the area of diversity within the Federal 
Government, and so let me quickly just ask you, how do you plan 
to work with the Commerce Department's Chief Human Capital 
Officer to improve diversity in the Census Bureau?
    Mr. Groves. Well, I will work with that role but with also 
a lot of other roles, and that is a big outreach problem, too, 
to get the pipeline, to get contacts with colleges that serve 
diverse student populations is key.
    The role of this in the Census Bureau is paramount. We 
study a diverse population. If we do not have a diverse staff, 
we do not understand that diverse population. So the will is 
here, I can assure you, Senator, and I will work in various 
ways. I hope to work with this Committee and find ideas and 
ways that you have that may help us.
    Senator Akaka. Well, thank you so much for your responses, 
and let me finally say that Senator Voinovich is passionate 
about human capital, and he will work diligently with you in 
this area, and so will I. I wish you well in your new position.
    Mr. Groves. Thank you.
    Senator Akaka. Thank you, Mr. Chairman.
    Senator Carper. I would just observe that Senator Voinovich 
is passionate about his wife of many years, his children, his 
grandchildren, but what he is really passionate about is human 
capital. He is on message, and if you spend any time with him, 
you know what I mean.
    We are fortunate that we have been joined by the senior 
Republican Member of this Committee. She and Senator Lieberman 
take turns chairing the Committee, and they have a great 
partnership. And we are fortunate for that. I am delighted that 
she is here, and thank you for joining us. You are welcome to 
make an opening statement if you wish and to begin your 
questions. Thank you.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. I will spare the 
Committee my opening statement, although it is eloquent and 
brilliant and insightful, but I will instead submit that for 
the record.
    [The prepared statement of Senator Collins follows:]

                 PREPARED STATEMENT OF SENATOR COLLINS

    With the 2010 census fast approaching, the next Director of the 
U.S. Census Bureau will need to quickly take action to ensure an 
effective ``actual enumeration'' of all those residing in the United 
States.
    The decennial census is a complex and extensive operation, and the 
information collected has a major impact on the distribution of 
political power and over $300 billion in federal resources. With so 
much at stake, it is essential that the results of the census be 
accurate, objective, credible, and free from even the appearance of 
political influence.
    The Census Bureau faces major operational and organizational 
challenges. Bureau officials acknowledged in 2008 that it was 
experiencing mission critical problems with its management and testing 
of key information technology systems. These problems resulted in a 
dramatic increase in the life-cycle cost of the 2010 census and also 
raised questions about the Bureau's ability to effectively complete 
this responsibility.
    I find it particularly alarming that after all the technological 
gains our society has made and the millions of dollars invested by the 
Census Bureau on handheld computers for nonresponse follow-up 
operations that the Bureau has returned once again to the use of paper 
and pencil to gather this important data. It is clear that there are 
woefully inadequate procurement practices, and, at worst, gross 
mismanagement at the Census Bureau. We simply cannot afford to waste 
time and money on critical programs that do not produce results, 
particularly on constitutionally mandated tasks like the census.
    The next Director of the Census Bureau must take steps now to 
address both current and future census challenges.
    If the President's fiscal year 2010 budget request is fully funded, 
the Census Bureau and Department of Commerce will be charged with 
managing $11 billion in taxpayer funds over the next 18 months. This is 
an enormous amount of funds for an agency with such a poor track record 
of fiscal mismanagement--a record that prompted my letter in March 
urging the Commerce Department to develop and implement a strategic 
plan to ensure the appropriate use of these tax dollars. To put these 
challenges in perspective, the 2010 census is considered to be the 
largest non-military mobilization of resources and personnel in U.S. 
history and is estimated to cost over $14 billion at completion.
    The next Director must also look beyond 2010, preparing the Bureau 
for the next decade and the 2020 census. Planning must begin now for 
any major IT investments for the 2020 decennial. The Bureau must 
carefully consider how to use the Internet to promote effective initial 
responses. It should also examine incentives and other mechanisms for 
promoting survey response and limiting the percentage of survey 
recipients that fail to meet their lawful obligation to respond.
    Dr. Robert Groves is the President's nominee to oversee this 
enormous project and lead the Census Bureau during this critical time. 
Given the Supreme Court's prohibition on the use of sampling for 
apportionment, it is my hope that Dr. Groves will alleviate my concerns 
today by outlining his vision for the Bureau. If confirmed, he will be 
responsible for ensuring that the Bureau fulfills its mission in 
accordance with the U.S. Constitution, without undue political 
influence, and with careful management of the taxpayer dollars 
entrusted to it.

    I do, however, have a series of questions for our nominee, 
and I want to start by saying, Dr. Groves, that I very much 
appreciated the discussion that we had in my office. The topics 
I am going to bring up today are redundant in the sense that we 
have discussed them in my office. But I do believe that they 
are sufficiently important that they need to be part of this 
hearing record.
    First, let me say that I was very pleased to see that you 
started your written statement off with what I think is the 
most important issue, and that is your statement that we need a 
Federal statistical system, a census that is independent of 
partisan politics. You made a very strong statement that this 
country needs an objective, nonpartisan professional Census 
Bureau. And as you know from our previous discussion, there has 
been a lot of concern about the White House's possible interest 
in affecting or otherwise influencing inappropriately the 
census, and I appreciate the commitment that you have given.
    But let me follow up by asking you what specific steps will 
you take, what safeguards will you put in place, to ensure that 
the next census, the 2010 decennial census, is free from 
political influence from either side of the aisle?
    Mr. Groves. Thank you, Senator, and thank you for your time 
that day when we met. That was very helpful.
    I think one answer to this is transparency. Sunshine, doing 
one's work in an open environment, having an ongoing dialogue 
with all of the stakeholders is one way to insulate the Census 
Bureau from that political partisanship.
    The second thing is leadership. I truly believe that the 
role of the Director of the Census Bureau during these next few 
years must be such that there is absolute certainty that I 
would speak out. I would first work to prevent such 
interference quietly. But if I failed at that, I must, as a 
government statistician, in my belief, talk about this. And I 
believe transparency is a very powerful antidote to attempts 
for partisan influence.
    Senator Collins. Would you be prepared to resign if you 
were asked or pressured to do something, to take some action to 
satisfy a political concern?
    Mr. Groves. More than that, Senator. If I resign, I promise 
you today that after I resign, I will be active in stopping the 
abuse from outside the system.
    Senator Collins. Thank you. I very much appreciate that.
    In that regard, in your responses to Senator Carper and in 
your responses to the pre-hearing questions, you indicated a 
willingness to respond to requests for information from this 
Committee. I would be remiss in my duties as the Ranking Member 
if I did not ask you whether or not you are willing to treat 
requests from the Chairman of the Committee and the 
Subcommittee of jurisdiction and the Ranking Members of the 
Committee and Subcommittee equally.
    Mr. Groves. I would be happy to do so, Senator, and I hope 
to establish with you and your colleagues a working 
relationship in which the requests are pretty free flowing.
    Senator Collins. Fortunately, with this Committee and its 
bipartisan approach, it is extremely rare for it not to be a 
bipartisan request for information, so I actually do not 
anticipate this being a problem, but one never knows. The make-
up of the Committee could change in the future.
    I want to move to another issue that has been extremely 
controversial, and that is the issue of sampling. The 
Constitution clearly requires the government to conduct an 
actual enumeration of the population every 10 years, and the 
Supreme Court has ruled--I believe it was in 1999--that 
sampling cannot be used for apportionment of House seats. There 
is, however, some question over whether sampling could be used 
for redistricting and for the allocation of Federal funds.
    Obviously, the reason this is important is the results of 
the census significantly affect both the allocation of Federal 
resources and political power ultimately.
    Will you advocate for the statistical adjustment or use of 
sampling during the 2010 census?
    Mr. Groves. No, Senator.
    Senator Collins. Will you advocate for statistical 
adjustment or the use of sampling during the 2020 census? 
Because, obviously, the practical reality is you probably could 
not use sampling for 2010 at this late date, anyway, because 
that would require planning, I assume.
    Mr. Groves. As I said in my questionnaire, I have no plans 
to do that for 2020.
    Senator Collins. Thank you. I want to turn to another 
issue, and, again, we discussed this one as well. As you know, 
the Census Bureau has encountered numerous difficulties with 
its information technology (IT) investments. Senator Carper and 
Senator Coburn have held many hearings on this issue, and it 
has really been appalling. After spending literally millions of 
dollars and much time, the Census Bureau scrapped its plans to 
use handheld computer technology for nonresponse follow-up due 
to significant performance problems and the loss of confidence 
in its contractor. So now, here we are going into the 2010 
census, and it is going to be done the old, out-of-date way, 
using paper and pencil. This is extraordinary in this 
Information Age where all of us have handheld devices, 
BlackBerrys, and all sorts of computer applications, that the 
Census Bureau is going to go back to using pen and pad, 
essentially. This management has added an estimated $2 to $3 
billion on top of the already expensive census cost that is 
more than $11 billion.
    What steps will you take to both bring the census into the 
21st Century--even the 20th century would be fine--and also to 
ensure that there is better management of IT contracts by the 
Census Bureau?
    Mr. Groves. Thank you, Senator. This is an important issue, 
and I know you care and other Members care deeply about this 
issue.
    Looking forward, I think there are various things. Part of 
it, with regard to IT, is a research and development function. 
Part of it is a management function. Let me speak to those 
separately.
    On research and development, it seems clear in my part of 
the IT world in large-scale surveys that successful software 
and hardware development has certain ingredients to it. One is 
that the user is involved at the beginning and at the end and 
at the middle; that the old-fashioned way of building big IT 
systems where people spend a year or so writing out 
specifications, and then the computer scientists go away and 
program those, and then come back with a device, that does not 
seem to be as efficient as constant involvement of a user 
orientation, so that little pieces of the system are built, and 
when the piece is not desirable, you throw it away and you 
build another little piece and gradually build the system.
    That appears to be successful over and over again. So one 
thing is how do you get the environment to get the users 
working with the computer professionals to make this happen, 
and that is, I would submit, setting of a culture that 
innovation through IT is part of the culture.
    The second thing is management. I do not know the details 
of the Field Data Collection Automation (FDCA) contract failure 
as well as you may, Senator, but looking forward, I do see the 
ingredients of success on the management side. One has to do 
with the leadership of oversight of contracts being there a lot 
and all the time, as it were, and cycling back and forth 
between the details of the system and the big picture. So 
leadership at the Census Bureau cannot walk away from these 
contracts and delegate them down to other levels. The 
leadership has to be involved throughout. I think that is the 
signal source of success.
    Senator Collins. Thank you very much, Dr. Groves. I do want 
to say that I am very satisfied with your answers to the 
questions that I posed on political interference on the 
sampling issue and the management of the Census Bureau. So 
thank you for your willingness to serve, and thank you, Mr. 
Chairman.
    Senator Carper. Not at all. Thank you so much. We will make 
your statement, which you did not give verbally, a part of the 
record.
    Senator Collins. Thank you.
    Senator Carper. I want to follow up on the line of 
questioning that Senator Collins was pursuing at the end of her 
comments. But on the issue of IT projects, it is not just the 
Census Bureau that struggles with these. It is all parts of the 
Federal Government, almost all, large and small. In State 
government, we had the same problem when I was governor of my 
State, and we faced these difficulties at all levels of 
government and, frankly, the truth be known, in the private 
sector, too. These are tough things to deal with and to get 
right.
    You mentioned in response to Senator Collins' question--you 
talked about the management of the projects, in this case from 
the Federal side, from the Census Bureau side. And one of the 
things that we have learned in the course of the hearings that 
Senator Coburn and I have held is that sometimes the people who 
are in charge of managing these projects are not especially 
well qualified and prepared to do that. I would just lay that 
at your feet. We have heard it again as recently as this week.
    A second problem that we face is apparently at the 
beginning of many of these projects, the agency does not 
clearly say this is what our needs are, and what we call ``need 
creep'' comes along, and we continue to change the nature of 
what we are looking for a contractor to provide.
    And a third piece is reliance on what we call cost-plus 
contracts instead of fixed-price contracts. And I would suggest 
that we have heard that not just once, but those three items 
keep coming back to us again and again and again.
    You have already talked a little bit about the management 
side, but let me just ask you to stick to this for a bit longer 
because a big part of the problem that we got into with the 
Census Bureau has been our inability to manage well a large 
technology contract.
    Mr. Groves. Thank you, Senator. I have a couple of comments 
that I think are relevant to your points. Let us take this 
``scope-creep'' one.
    I have seen several software development projects that have 
not managed that part of the task well, and what usually 
happens is for very benign reasons, late in the game, a set of 
users say, the specifications I gave you were not exactly what 
we wanted. We wanted some other thing. And without the 
management discipline to set those priorities, then things get 
out of control.
    The other thing I have noticed is on the programming and 
software development side, that without a constant interaction 
between users and producers of large software systems, the 
producers, the programmers, will get fascinated with a very 
tough technical problem, without getting user input about how 
important the solution to that problem is in the overall scheme 
of things. And so many times software development gets fixated 
on what is really a little part of the problem. And if users 
were at the table, they could say to those programmers, it is 
not that important, let us drop that; if it is that hard to 
solve, we will give that up.
    And so that constant dialogue is key for cost control and 
scope control, I think.
    Senator Carper. I want to go back to a point I raised 
earlier on with respect to undercount and overcount, and just 
spend a little bit more time talking about efforts that can 
reduce the undercount, especially efforts that can reduce the 
need to go back and actually call on the residents to try to 
find out who lives there and obtain some basic information 
about the residents, the family.
    At our field hearing in Philadelphia on Monday, the mayor 
of Philadelphia was among our witnesses. The mayor of 
Wilmington, Delaware, was among our witnesses. And they spoke 
of the need for partnerships, of the need for a strong media 
campaign to raise awareness of the census, to raise the 
importance to the citizenry of why it was important to be 
counted and what the ramifications are for Philadelphia or 
Wilmington, Pennsylvania or Delaware, or other States, why it 
is important that people be counted.
    The mayor of Philadelphia indicated the cost, the loss to 
Philadelphia and Pennsylvania for every person not counted was 
actually very large, surprisingly large, almost hard to 
believe. But talk to us about what you and what the Census 
Bureau can do to nurture, to further the work of partnerships, 
and to also put together, if you will, a compelling campaign to 
raise awareness that will cause some of the hardest-to-count 
members of our society to want to be counted and to respond not 
just to the person who comes and knocks at their door for the 
second or third time to find them, but who will respond the 
first time out. What can we do? And how can we better ensure 
that this happens?
    Mr. Groves. Well, the first thing to note is that the 
Census Bureau's own evaluation in 2000 I think is pertinent to 
this discussion because it is pretty clear that awareness 
itself is a big driver for participation. That is actually good 
news, if you think about it. How do you get awareness that is 
effective? And, again, I think in 2000 there were over 100,000 
partnerships that the Census Bureau formed at all levels. These 
were groups that were government based, nonprofit based, social 
groups, religious groups, and so on.
    The key ingredient seems clear both from the U.S. 
experience and experience in other diverse societies. The 
outreach is most effectively and cheaply done when the message 
is delivered by a messenger who is a trusted spokesman for the 
group, and in a diverse society, that is not one spokesman. 
That is many spokesmen. And it appears that local leaders play 
an important role in this.
    So the outreach that needs to be done effectively--and this 
is not just in the United States, I think; this is a worldwide 
phenomenon--has to be a grassroots one, almost. And that is a 
major campaign that has to be waged successfully.
    Senator Carper. Give us some examples of places where you 
have seen it done well, both in creating the partnerships, 
putting together the message, through any different number of 
modes. My sons communicate a lot differently than I do. I still 
read the newspaper. They get their news over the Internet. For 
Mother's Day, I gave my wife some gifts, including a Mother's 
Day card that I picked up at a local store. My oldest son put 
together--over the Internet, with photos from his files--an 
unbelievable Mother's Day card. It had photos of him and his 
brother and even of their father on the front of the card, with 
a real special personalized message on the inside that he did, 
I think, with Hallmark, and Hallmark actually mailed the card 
to my wife. She was pretty amazed with it. So was I. Maybe you 
are as familiar with it as your sons are. I do not know. Mine 
are well ahead of me.
    But given the way that we communicate, the messages that we 
use and really the medium that we use, how do we act in 
response to those changes?
    Mr. Groves. No, I think your question has the implied 
answer, and the ingredients of success, I think, are 
identifying the sub-groups that have different media that they 
choose to look at and have different languages that they 
communicate with. I do not mean basic languages, but different 
terms and ways of communicating.
    So the message has to be tailored, and in diverse countries 
around the world--Australia has a great example of dealing with 
the aborigines in communicating a separate message that is 
important to that group.
    I cannot wait, if confirmed, to learn about the media 
campaign that is being designed right now. I think the key to 
the success of that, as we have seen over and over again, is 
the customization of message and medium.
    Senator Carper. I will just follow up on this and then 
yield to Senator Akaka. During my last year when I was governor 
of Delaware, States were involved in a big lawsuit against the 
tobacco industry. The States won, and as a result of the 
lawsuit, a large amount of money was provided to create a 
foundation, later called the American Legacy Foundation, whose 
job it was to be able to message particularly to young people 
to discourage them from ever starting to use tobacco, and if 
they were, to stop.
    I was the founding vice chairman. Chris Gregoire, who was 
attorney general of the State of Washington, now governor of 
Washington, was the founding chair. And we decided that in 
order to be able to prepare the message to the young people 
across the country, it was probably best if then-Attorney 
General Gregoire and I not do the work. In fact, the people on 
our board, however gifted they were, said we probably were not 
up to it. And we looked around the country, and we hired a lot 
of very good agencies to help us to develop the message and to 
figure out how to convey the message. And they decided they 
were not up to it as well, but they found a lot of young people 
around the country that they recruited to help in both the 
message and the delivery of the message, people from all 
different walks of life.
    The American Legacy Foundation, I am told, was one of the 
most successful of such initiatives that we have done in terms 
of changing public perception of, in this case, the use of 
tobacco, especially with young people.
    Interestingly enough, I almost never saw the television 
commercials. I almost never heard the radio commercials. I did 
not see the stuff that was out on the Internet. But it was out 
there, and it was delivered in ways that young people, like my 
kids, would see, not necessarily their parents. It was hugely 
successful. I met with somebody in California recently who 
talked to me about the methamphetamines program--there is a 
program now to discourage the use of methamphetamines in 
Montana, and he said they based it on the American Legacy 
model, and it had enormous success in their prevention efforts 
in Montana with the use of methamphetamine and the perception 
by young people.
    How do we take those two experiences and use them in 
conjunction with the census?
    Mr. Groves. I think finding alternative media to 
communicate and tailoring it to the individual audience are 
key. The content of the message has to be different for 
different groups. The goal of the message has to be the same, 
but how it is delivered and how it is framed, I think, needs to 
be tailored to the individual groups, and I am anxious to see 
whether that same sort of thinking applies in the current work 
at the Census Bureau.
    Senator Carper. We opened our hearing in Philadelphia on 
Monday with a wonderful video prepared by the Census Bureau, 
and it was pictures of families and people from all walks of 
life, different ethnic backgrounds, and beautifully 
photographed and choreographed. A wonderful, compelling message 
that when we take the census, we really make a portrait of 
America. I loved it. That was wonderful.
    That will get a lot of people to want to participate, but 
not some of the people we most need to participate from the 
hardest to count group--and I would just ask us to keep that in 
mind.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Groves, I want to return to research because I know 
that is an important part of the Census Bureau that you have 
worked with and you would want to develop. We know that is 
essential for the Census Bureau to have an active research 
program to improve survey design, address challenges that are a 
result of a rapidly changing society, and maintain the most 
efficient research methods and technologies.
    In the past, the Census Bureau has significantly decreased 
funding for research and development, and I think you realize 
that as well. In our brief discussion, I learned of your 
interest in creating a dedicated research arm within the Census 
Bureau.
    How do you plan to increase research and development at the 
Census Bureau, and what would you have the research program 
focus on?
    Mr. Groves. Thank you, Senator. Maybe I should first note 
why you need research at the Census Bureau. My belief is that 
the current approaches of measuring businesses and individuals 
through survey methods and census methods will not continue to 
work. If the technology of those methods is completely stable, 
fixed in time, ossified, there will not be a successful set of 
statistics in the future. So innovation is needed.
    How do you innovate? Well, you innovate through trying 
alternative ideas, and the structured way of trying alternative 
ideas is something we call ``research'' in the world of 
science. So that is the chain that we have to begin.
    Now, how do you do this? One is to note that many 
opportunities for innovation do not necessarily demand 
increases in budget. They are efficiencies that can be 
introduced through innovation, and those are important to find 
out, to sniff out very quickly, because in these times with 
constrained budgets, the use of research might immediately be 
opposed by saying, well, that is going to increase our budgets, 
how will we do our normal work if we are also going to pay 
these researchers?
    So innovation can pay for itself. I believe that. I have 
seen it happen. We have created it at various times in my own 
experience.
    We also need partnerships. Not all research innovation will 
come from inside the Census Bureau. There is a vibrant sector 
outside of the Census Bureau inventing new measurement 
techniques right now, and there ought to be partnerships 
between the Census Bureau and this sector--it should be an open 
process. And so I am terribly interested in figuring out ways 
of building those partnerships within the current constraints 
of a Federal agency.
    Senator Akaka. Yes, and I would agree with you that 
focusing on research would help with achieving the mission of 
the Census Bureau, which is getting all the information you 
need about people and where they are. I was interested in the 
word you used--partnerships--and how to get down to the users. 
You also mentioned by speaking to a group and its leader, you 
do not necessarily get down to receiving the kind of 
information you need from the grassroots, which are the users.
    In a sense, all of this is directed toward trying to get 
all of that information up into the Census Bureau. It is a huge 
challenge, and I believe that research is an area where we need 
to continually, dynamically try to find a better way to get 
that grassroots information. And you mentioned transparency, 
all the right things needed to bring this about, and I would be 
interested in knowing your ideas in particular on getting to 
the users, for example, people who do not speak English well. 
There are many ethnic groups all over the place. You mentioned 
spiritual groups as well. It is going to be a huge challenge to 
reach all these groups and get good information.
    Do you have further comments about how you would try to 
reach the grassroots?
    Mr. Groves. Thanks, Senator. This is a tough problem 
because of the nature of government statistics, and that is, 
they are freely given to the society, and many of them are then 
repackaged by the private sector and sold in different ways to 
individual clients. So one of the problems of any government 
statistical agency is identifying the users in order to reach 
out to them. It sounds odd, but it is true.
    The Census Bureau has a series of State data centers that 
have effectively outreached. In one manner, it would be nice to 
see those expanded--I think you need a long run view of this. 
Some of our users are children, and the use of statistics to 
aid the general quantitative literacy of our country is a 
wonderful opportunity, I think, for the entire Federal 
statistical system. Taking advantage of that will not produce 
immediate dividends, but it will produce a generation that 
understands things in ways that our generation does not.
    So these are big issues. I agree with you. They cannot be 
solved by the Census Bureau alone. Partnerships is the word, I 
think, that works on all of these things, and in getting 
statistics in the schools, I think this is an entire 
statistical system problem that we need to work on.
    Senator Akaka. I look forward to working with you in this 
area. You spoke about transparency, management, and how to 
reach the grassroots, of course. Important to all of these 
goals is to have personnel in the Census Bureau who can extend 
its reach. Part of supporting that work is training. Training 
is one of the most important factors in promoting good 
performance and reaching your mission.
    A recent report by the Commerce Department's Inspector 
General found that census field workers were not consistently 
following procedures that have been set up. As a matter of 
fact, the Inspector General reported that temporary census 
field workers were not following these procedures when 
completing address canvassing operations, where workers were 
sent to verify and correct census maps and addresses. Failing 
to do that, of course, would impact the reports that you 
receive.
    What steps will you take to ensure that the Census Bureau 
effectively trains its employees and that they are following 
appropriate census procedures?
    Mr. Groves. Well, as you know, Senator, the address 
canvassing is going on as we speak, and this is a very 
important step in the 2010 census. It produces the Master 
Address File that is the base of the mailing. So training here 
is very important. Training is also important in nonresponse 
follow-up. So it is a key lever that you have as a manager.
    I am not briefed on the current training of the address 
canvassing nor of nonresponse follow-up. I can tell you that I 
am personally interested in those things. I find them an 
interesting thing to worry about as a manager, so I will pay 
attention to those.
    Senator Akaka. Well, thank you for that, and the reason I 
ask the question is in our chat, I felt that this was an area 
that you really wanted to focus on. And so I am very impressed 
with your responses.
    Mr. Chairman, I thank you for being so generous with the 
time for questioning. And I want to wish you--and I know how 
important the family is--and the family well in supporting what 
you do for our country.
    Thank you very much.
    Senator Carper. Senator Akaka, thank you very much.
    I want to follow up on Senator Akaka's last question. I 
thought it was an excellent question and one that was brought 
to our attention on Monday at our field hearing in 
Philadelphia.
    We rely on Inspector General reports. In this Committee 
especially, we rely on the work of the Government 
Accountability Office and we rely on the work of the Office of 
Management and Budget to help ferret out waste and inefficient 
use of taxpayer money. And when we got wind of the IG's 
report--this was the Inspector General, I think, for the 
Department of Commerce--it just almost jumped off the page at 
us. And I would just urge you to familiarize yourself with it 
and to go to school on it. It sent up real alarm signals, and 
it should. It did for us, and it certainly should for you. So I 
would urge you to bear down on that right away.
    I have just two more questions that I am going to ask. 
There will be a number of questions that are going to be 
submitted for the record, and we will just ask you to respond 
to those in a prompt way. But I just want to ask two more here 
today.
    One of those is, Dr. Groves, if confirmed by the Senate, 
which I think is likely, you will be taking command of the 
census within less than 7 months from the beginning of the 
census year and less than 11 months from Census Day. As we know 
well on this Committee, the census operations are already well 
underway, and they have been for some time. In fact, it is 
almost like they never stopped. It is sort of like campaigns. 
Campaigns these days, unfortunately, seem to never stop either.
    In the last two censuses, the Director was confirmed within 
2 years of Census Day in 2000 and within 4 months of Census Day 
in 1990. What extra challenges does this bring? And what, if 
anything, other than confirming you quickly, should this 
Committee be doing about it?
    Mr. Groves. Well, thank you, Senator. As you might imagine, 
I have given this some thought. It is terribly late. It is not 
terribly unusual, as you have just noted, unfortunately. The 
design is fixed for the 2010 census. I think it must be fixed, 
so any major changes bring with them so much risk that the 
benefits would have to be enormous for them to be considered.
    I need to establish very quickly and have hoped to call for 
a risk assessment study that uses the talent inside the Census 
Bureau and some talent outside the Census Bureau to help 
identify pressure points. I need a set of priorities. What are 
the first things to which I need to attend to make the 2010 
census as successful as possible?
    I think I also need to establish a leadership style, 
working jointly with the executive team that is running the 
census, that is one of trust, one that allows us to look at 
alternative solutions for problems that arise. Problems will 
arise in the 2010 census. I guarantee you this. It is too large 
of an endeavor to go completely smoothly. And then at those 
moments when there is a problem, we need calm, fast, and 
flexible decisions, and they have to be transparent. So we need 
to work with you and other committees in Congress so that all 
of the stakeholders know the status, look at the options, 
understand why we choose one option. That has to be done 
quickly to be successfully done. So speed is important and 
flexibility is important, and a calmness is important, I think, 
in the crisis, and I hope to provide this.
    Senator Carper. Several months ago, we had a panel that 
included a number of people who worked on censuses before in 
very senior positions. One of the questions I asked them at the 
end of the time that they spent with us that day--I said to 
each of them, we still have not gotten a name from the 
Administration. We have a Secretary of Commerce, Gary Locke, 
whom I knew as governor. We worked together as governors. He is 
a very good person. And I said to Gary Locke when he was 
nominated by the President--I happened to run into him the next 
day, and I said, ``Two words, my friend. Two words you need to 
think about: Census Director.'' And I kept running into him, 
ironically, and every time I would run into him, I would say, 
``Census Director.'' When he got confirmed, the next day I 
called him and I said, ``Census Director.''
    I asked this question of our panel that day, and I would 
ask it of you as well. The idea of having a Census Director who 
in some cases serves 1 year and 5 days and in some cases 3 
years, 2 or 3 years, 4 years, it is pretty uneven, and we end 
up with a situation, as we have here today, where our next 
Census Director is going to assume the reins of leadership 
literally as we begin the census itself.
    What are your thoughts about whether or not there should be 
a fixed term? The House of Representatives, I think, has passed 
legislation that would provide for a fixed term of 5 years for 
Census Director. They could be dismissed for cause, but 
anything short of that, this is a term that would extend beyond 
the normal 4 years that a President's term extends, and it 
could extend from one Administration to the other. But what are 
your thoughts on whether or not the proposal that has come out 
of the House makes sense and on whether or not it makes sense 
for the Census Bureau Director to continue to report to the 
Secretary of Commerce? This has been the law for some time.
    Mr. Groves. Well, let me note that when the 2010 census 
will be over, this country would have experienced five out of 
the last seven censuses led by a Director who was appointed in 
the year 9 or in the year 0. There was one poor fellow 
appointed weeks before the forms were mailed out, I believe.
    Senator Carper. Who was that, do you remember?
    Mr. Groves. I cannot remember. I will get back to you on 
that, though. So there is a problem. Unless that system is 
working perfectly, I think it is a problem.
    A fixed term has various meanings, and I think one meaning 
would be important if one would pursue this. There are fixed 
terms that float, that are such that you may have 4 years after 
the date you take office, and given the way the Federal 
Government appointment process works, those often float in 
time. I think to fix this one problem through a fixed term, it 
ought to be defined in terms of dates. So I know that different 
past Census Bureau Directors have slight debates about whether 
it should be a 7 and 2 combination, appointed in year 7 or year 
2, or a 6 and 1. Those are minor matters. I think the notion 
that you have someone in place overlapping the decennial census 
is a desirable attribute. So it is meritorious of serious 
discussion, Senator.
    Senator Carper. Thank you. We may want to pursue that and 
explore that with you further as time goes by.
    Dr. Groves, much has been made of the notion of sampling 
for adjustment. Senator Collins when she was here discussed 
with you, as I believe she did in her office in an earlier 
meeting, issues revolving around sampling. But as you and 
Secretary Locke have said, the Census Bureau does not have a 
plan or design and will not use dual system enumeration to 
address the 2010 census. However, since 1980, I am told that 
the Census Bureau has used statistical methods to generate 
detailed estimates of census undercounts and overcounts, 
including those of particular ethnic, racial, and other groups.
    The Government Accountability Office says the cost of these 
efforts in 2000 was about 3 percent of the lifecycle cost of a 
decennial census, which involved quality check interviews with 
some 314,000 households, and comparing the results of those to 
the census itself. In fact, these report cards on the quality 
of the census in 1980, 1990, and 2000 are what everyone refers 
to when they discuss the relative accuracy of each census.
    A similar coverage measurement effort is a part of the 2010 
census design, and I would just like to ask you to explain for 
us, if you will, how vital this coverage estimate program is in 
order for the Congress and the Nation to evaluate the success 
of the 2010 decennial census and whether in your view you 
believe the current design is robust enough and sufficiently 
funded to give us a high-quality report card on which we can 
rely.
    Mr. Groves. Let me address the first question about the 
importance of this. This is key in my belief, Senator. The 
obligation of a Federal statistical agency is to both produce 
the best estimates it can and then in a rare attribute also 
tell the public how bad those are and how good those are. We 
have to do both things. The effort that you talk about, the 
Census Coverage Measurement (CCM) program, is the second. We 
have to tell you and we have to tell the American public the 
good and bad parts of the 2010 census. That must be funded at a 
level that gives quality data on the quality aspects of the 
census.
    Your second question I do not have enough information to 
answer because I do not know the details of the linkage between 
the budget of the coverage measurement activities and actually 
what is going to go on on the ground.
    Senator Carper. Well, as I said earlier, there are some 
questions that are going to be submitted for follow-up 
responses, and we would ask you in writing to respond further 
to that, if you could.
    Without objection, the hearing record will remain open 
until 12 noon tomorrow for the submission of additional 
statements and questions.
    I just want to say again--Senator Akaka has already 
mentioned this in his comments as well--we are delighted that 
you are before us today. And I may have said this earlier, but 
the panel that was here a couple months ago, we asked all kinds 
of questions of the people who are steeped in the census and 
statistics. I asked each of them to give me a name or two of 
somebody who could be Census Bureau Director, and several of 
them submitted your name. That is one of the things I always 
look for, when smart people who know the business say this guy 
or this gal would be really good. That is something I would 
take note of.
    Velvet Johnson, who has worked a lot on this hearing and, 
frankly, on census issues for us for the last year or so, has 
just handed me a note. It says, ``Record will be open until the 
close of business today.'' Not tomorrow at 12 noon. So my 
colleagues and staff are forewarned.
    In closing, thank you for preparing for this job. I think 
you have been preparing for it for a long time, and I think you 
are well prepared.
    As you spoke, I watched your wife and her lips barely moved 
when you spoke. I thought she was pretty good at that. 
[Laughter.]
    I have seen that happen in other cases, but she is 
unusually good at that. And I just want to say to you, Mrs. 
Groves, thank you for being here, and not just standing behind 
your man but actually being willing to share him with us, in 
this instance as well as others.
    To Andrew, and Christopher, who is not here, you have done 
a good job raising your Dad, and we are grateful for the time 
and effort you put into that.
    To others who are here, sisters or whoever, members of the 
extended family, thank you for joining us today and for your 
support of this nominee.
    Our intent is to be able to try to move this nomination 
through Committee next week. We are going to have a one-week 
recess for Memorial Day, and we would like to get this 
nomination out of Committee.
    Is it possible we could actually get this through the 
Senate? Well, maybe we can get this through the Senate. 
Sometimes it is hard to get 51 Senators to agree that if I 
offered a resolution that today is Friday, I am not sure I 
could get 51 votes for that. But hopefully we will be able to 
move this nomination because it is critical that you get 
confirmed and get started.
    Again, thank you for joining us and for your willingness to 
go to work for the people of this country.
    Mr. Groves. I cannot wait to be able to work with all of 
you. Thank you.
    Senator Carper. With that, this hearing is adjourned.
    [Whereupon, at 11:09 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LIEBERMAN

    The nomination of Robert M. Groves to be Director of the Census at 
the Department of Commerce comes at a critical time for the Census 
Bureau. With less than a year before the nation's decennial census 
takes place, the Bureau is in need of technically skilled and forward-
looking leadership to guide it through a thicket of problems that 
threaten to undermine the 2010 census and therefore the Bureau's core 
functions.
    Mr. Groves appears to be an inspired choice for this position. 
First and foremost he is a scientist, with extensive expertise in 
statistics, social research, and survey methodology. He also has 
experience in the administration of large scale surveys. But second, he 
is deeply committed to modernizing the business of government surveys, 
and recruiting and training the next generation of statisticians at an 
agency where almost half the staff will be eligible for retirement 
within one year.
    Since the 1970s, Mr. Groves has been a professor in the Sociology 
Department at the University of Michigan. From 1990-1992, he was 
associate director at the Census Bureau, returning to Ann Arbor except 
for a four year appointment at the University of Maryland. He has 
advised a number of large sample surveys including for Neilson Media 
Research, and consulted on advanced survey design with almost all 
federal statistical agencies, including the Census Bureau, the Centers 
for Disease Control and Prevention, the Agriculture Department, and the 
National Science Foundation.
    He is an innovator of the cutting edge survey methodology that 
unites statistical, social science, and management sciences to improve 
the accuracy of measurement. He has studied alternative ways of 
measuring the U.S. population, how the alternatives affect survey 
conclusions, and how best to measure different subjects. A variety of 
professional publications and associations have published and awarded 
his work over the past 25 years.
    So, clearly, Mr. Groves has the scientific background and 
credentials to guide the Census Bureau during this critical time. But 
he is more than a good scientist. His experience with federal agencies 
and with managing large-scale surveys has provided him with a clear-
eyed view of the administrative challenges facing any large 
organization and the need to plan for the future.
    The Bureau, unfortunately, faces no shortage of challenges. Most 
immediately, it is looking at both technological and sociological 
hurdles to conducting a credible 2010 decennial census. The growing 
population of immigrant, non-English speaking citizens and the high 
mobility of the American population make a survey of every citizen 
extremely difficult. Add to this the Government Accountability Office 
findings over the decade that the Bureau does not have the capacity to 
generate reliable cost estimates for the decennial census and it is 
obvious why the agency continues to come to Congress seeking additional 
funds to perform its basic functions.
    For the last eight years, Mr. Groves has directed the University of 
Michigan Survey Research Center - the largest academic survey research 
organization in the world, with a staff of over 1,000 when large 
studies are conducted. He has articulated his interest in bringing in 
the next generation of technical leaders and collaborating with federal 
statistical agencies to avert a future crisis in technical talent. And 
he said in his interview with Committee staff that he believes 
``management leadership makes a difference.'' These, I think, are 
qualifications much needed at the Census Bureau today.
    Mr. Groves is also committed to the modernization of the Bureau. 
The basic structure of the federal statistical system was developed in 
an earlier era, and the world of statistical design and data collection 
has far outstripped it. The federal government should be leading the 
effort to adopt new data collection tools and approaches, rather than 
struggling to keep up, and I believe Mr. Groves has the passion and the 
skill to ensure that this is the case.
    Finally, let me say a word about the Census Bureau's independence 
and the controversial issue of statistical sampling. The Census Bureau 
must be a scientific organization, operating independent of political 
influences. The credibility of federal statistical information depends 
upon that and is key to maintaining a fair and open democracy. 
Statistical sampling may be a valuable survey method, but the law says 
that the decennial census shall not use it--especially for 
congressional reapportionment. I think Mr. Groves understands the law. 
Plans for the decennial census have been underway for years, and Mr. 
Groves is on the record stating that, if confirmed, he has no intention 
of applying statistical sampling to the 2010 census. That said, the 
Director of the Census must be free to speak openly if he is to uphold 
and strengthen the scientific gravitas of the Bureau. I am confident 
Mr. Groves adheres to these principles.
    If confirmed as Census Bureau Director, Mr. Groves will have no 
shortage of problems to address, including making sure the 2010 census 
is on track to capture all American citizens, modernizing the agency, 
training and recruiting new staff, data security, and data privacy, to 
name just a few. I am pleased that the President has nominated someone 
with as distinguished a background in statistics and large-scale 
surveys as Mr. Groves and I wish him luck as his nomination proceeds.

[GRAPHIC] [TIFF OMITTED] T1029.001

[GRAPHIC] [TIFF OMITTED] T1029.002

[GRAPHIC] [TIFF OMITTED] T1029.003

[GRAPHIC] [TIFF OMITTED] T1029.004

[GRAPHIC] [TIFF OMITTED] T1029.005

[GRAPHIC] [TIFF OMITTED] T1029.006

[GRAPHIC] [TIFF OMITTED] T1029.007

[GRAPHIC] [TIFF OMITTED] T1029.008

[GRAPHIC] [TIFF OMITTED] T1029.009

[GRAPHIC] [TIFF OMITTED] T1029.010

[GRAPHIC] [TIFF OMITTED] T1029.011

[GRAPHIC] [TIFF OMITTED] T1029.012

[GRAPHIC] [TIFF OMITTED] T1029.013

[GRAPHIC] [TIFF OMITTED] T1029.014

[GRAPHIC] [TIFF OMITTED] T1029.015

[GRAPHIC] [TIFF OMITTED] T1029.016

[GRAPHIC] [TIFF OMITTED] T1029.017

[GRAPHIC] [TIFF OMITTED] T1029.018

[GRAPHIC] [TIFF OMITTED] T1029.019

[GRAPHIC] [TIFF OMITTED] T1029.020

[GRAPHIC] [TIFF OMITTED] T1029.021

[GRAPHIC] [TIFF OMITTED] T1029.022

[GRAPHIC] [TIFF OMITTED] T1029.023

[GRAPHIC] [TIFF OMITTED] T1029.024

[GRAPHIC] [TIFF OMITTED] T1029.025

[GRAPHIC] [TIFF OMITTED] T1029.026

[GRAPHIC] [TIFF OMITTED] T1029.027

[GRAPHIC] [TIFF OMITTED] T1029.028

[GRAPHIC] [TIFF OMITTED] T1029.029

[GRAPHIC] [TIFF OMITTED] T1029.030

[GRAPHIC] [TIFF OMITTED] T1029.031

[GRAPHIC] [TIFF OMITTED] T1029.032

[GRAPHIC] [TIFF OMITTED] T1029.033

[GRAPHIC] [TIFF OMITTED] T1029.034

[GRAPHIC] [TIFF OMITTED] T1029.035

[GRAPHIC] [TIFF OMITTED] T1029.036

[GRAPHIC] [TIFF OMITTED] T1029.037

[GRAPHIC] [TIFF OMITTED] T1029.038

[GRAPHIC] [TIFF OMITTED] T1029.039

[GRAPHIC] [TIFF OMITTED] T1029.040

[GRAPHIC] [TIFF OMITTED] T1029.041

[GRAPHIC] [TIFF OMITTED] T1029.042

[GRAPHIC] [TIFF OMITTED] T1029.043

[GRAPHIC] [TIFF OMITTED] T1029.044

[GRAPHIC] [TIFF OMITTED] T1029.045

[GRAPHIC] [TIFF OMITTED] T1029.046

[GRAPHIC] [TIFF OMITTED] T1029.047

[GRAPHIC] [TIFF OMITTED] T1029.048

[GRAPHIC] [TIFF OMITTED] T1029.049

[GRAPHIC] [TIFF OMITTED] T1029.050

[GRAPHIC] [TIFF OMITTED] T1029.051

[GRAPHIC] [TIFF OMITTED] T1029.052

[GRAPHIC] [TIFF OMITTED] T1029.053

[GRAPHIC] [TIFF OMITTED] T1029.054

[GRAPHIC] [TIFF OMITTED] T1029.055

[GRAPHIC] [TIFF OMITTED] T1029.056

[GRAPHIC] [TIFF OMITTED] T1029.057

[GRAPHIC] [TIFF OMITTED] T1029.058

[GRAPHIC] [TIFF OMITTED] T1029.059

[GRAPHIC] [TIFF OMITTED] T1029.060

[GRAPHIC] [TIFF OMITTED] T1029.061

[GRAPHIC] [TIFF OMITTED] T1029.062

[GRAPHIC] [TIFF OMITTED] T1029.063

[GRAPHIC] [TIFF OMITTED] T1029.064

[GRAPHIC] [TIFF OMITTED] T1029.065

[GRAPHIC] [TIFF OMITTED] T1029.066

[GRAPHIC] [TIFF OMITTED] T1029.067

[GRAPHIC] [TIFF OMITTED] T1029.068

[GRAPHIC] [TIFF OMITTED] T1029.069

[GRAPHIC] [TIFF OMITTED] T1029.070

[GRAPHIC] [TIFF OMITTED] T1029.071

[GRAPHIC] [TIFF OMITTED] T1029.072

[GRAPHIC] [TIFF OMITTED] T1029.073

[GRAPHIC] [TIFF OMITTED] T1029.074

[GRAPHIC] [TIFF OMITTED] T1029.075

[GRAPHIC] [TIFF OMITTED] T1029.076

[GRAPHIC] [TIFF OMITTED] T1029.077

[GRAPHIC] [TIFF OMITTED] T1029.078

[GRAPHIC] [TIFF OMITTED] T1029.079

[GRAPHIC] [TIFF OMITTED] T1029.080

[GRAPHIC] [TIFF OMITTED] T1029.081

[GRAPHIC] [TIFF OMITTED] T1029.082

[GRAPHIC] [TIFF OMITTED] T1029.083

[GRAPHIC] [TIFF OMITTED] T1029.084

[GRAPHIC] [TIFF OMITTED] T1029.085

[GRAPHIC] [TIFF OMITTED] T1029.086

[GRAPHIC] [TIFF OMITTED] T1029.087

[GRAPHIC] [TIFF OMITTED] T1029.088

[GRAPHIC] [TIFF OMITTED] T1029.089

[GRAPHIC] [TIFF OMITTED] T1029.090

[GRAPHIC] [TIFF OMITTED] T1029.091

[GRAPHIC] [TIFF OMITTED] T1029.092

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
